APPENDIX

APPENDIX
Opinion of the Eleventh Circuit Court of Appeals,
United States v. Duwayne Jones,
814 F. App’x 553 (July 6, 2020) ...................................................................... A-1
Judgment imposing sentence ......................................................................... A-2

A-1

United States v. Jones, 814 Fed.Appx. 553 (2020)

814 Fed.Appx. 553 (Mem)
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S. Ct. of App. 11th Cir. Rule 36-2.
United States Court of Appeals, Eleventh Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Duwayne JONES, a.k.a. Black, Defendant-Appellant.
No. 19-11655
|
Non-Argument Calendar
|
(July 6, 2020)

controlled substance, his convictions should be not used as
career offender predicates.
This Court reviews de novo the district court's decision to
classify a defendant as a career offender. United States v.
Gibson, 434 F.3d 1234, 1244 (11th Cir. 2006).
Section 4B1.1 of the Sentencing Guidelines provides that a
defendant is a career offender if “(2) the instant offense of
conviction is a felony that is either a crime of violence or
a controlled substance offense; and (3) the defendant has at
least two prior felony convictions of either a crime of violence
or a controlled substance offense.”
U.S.S.G. § 4B1.1(a).
Controlled substance offense is defined as

an offense under federal or state
law, punishable by imprisonment for
a term exceeding one year, that
prohibits the manufacture, import,
export, distribution, or dispensing of a
controlled substance (or a counterfeit
substance) or the possession of a
controlled substance (or a counterfeit
substance) with intent to manufacture,
import, export, distribute, or dispense.

Attorneys and Law Firms
Carol Herman, Emily M. Smachetti, U.S. Attorney Service
- Southern District of Florida, U.S. Attorney Service - SFL,
Miami, FL, Phillip Drew DiRosa, U.S. Attorney's Office,
Fort Lauderdale, FL, Brandy Brentari Galler, U.S. Attorney's
Office, West Palm Beach, FL, for Plaintiff-Appellee
Peter Vincent Birch, Michael Caruso, Federal Public
Defender, Federal Public Defender's Office, West Palm
Beach, FL, for Defendant-Appellant
Duwayne Jones, Pro Se
Appeal from the United States District Court for the Southern
District of Florida, D.C. Docket No. 9:19-cr-80004-KAM-1
Before JORDAN, NEWSOM, and ANDERSON, Circuit
Judges.
Opinion
PER CURIAM:
*554 Duwayne Jones appeals his 144-month sentence for
distribution of a substance containing a detectable amount
of heroin and cocaine. He argues that the district court erred
in classifying him as a career offender based on his prior
Florida convictions for possession of cocaine with intent to
sell or deliver. He asserts that because Florida law does not
contain a mens rea element regarding the illicit nature of the

U.S.S.G. § 4B1.2(b).
Section 893.13 of the Florida Statutes criminalizes the
sale, manufacture, and delivery of a controlled substance, as
well as possession of a controlled substance with intent to sell,
manufacture, or deliver. Fla. Stat. § 893.12(1)(a)(1). In May
2002, the Florida Legislature enacted Fla. Stat. § 893.101,
which eliminated knowledge of the illicit nature of the drugs
as an element of controlled substance offenses and created an
affirmative defense for the lack of such knowledge. Shelton
v. Sec'y, Dep't of Corr., 691 F.3d 1348, 1350 (11th Cir. 2012).
In

United States v. Smith, this Court held that a conviction

under
Fla. Stat. § 893.13 for the sale or delivery of
cocaine and the possession of cocaine with intent to distribute
it qualifies as a “serious drug offense” under the Armed
Career Criminal Act (“ACCA”) and a “controlled substance
offense” under

U.S.S.G. § 4B1.2(b).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

United States v.

1

United States v. Jones, 814 Fed.Appx. 553 (2020)

Smith, 775 F.3d 1262, 1266-68 (11th Cir. 2014); see also
United States v. Phillips, 834 F.3d 1176, 1184 (11th
Cir. 2016) (following
Smith as binding precedent to a
defendant's conviction for possession cocaine with the intent
to sell). This Court concluded that because no mens rea
element with respect to the illicit nature of the controlled
substance is expressed or implied in the definition under
18 U.S.C. § 924(e)(2)(A)(ii), convictions under
Fla.
Stat. § 893.13(1)(a) categorically qualify as serious drug
offenses under the ACCA and controlled substance offenses
under

§ 4B1.2(b).

Smith, 775 F.3d at 1267-68.

*555 The Supreme Court recently affirmed a decision from
this Court relying on

Smith and held that convictions under

Fla. Stat. § 893.13(1)(a) qualify as serious drug offenses
under the ACCA even though knowledge of the illicit nature
of the controlled substance is not an element of the crime.
Shular v. United States, ––– U.S. ––––, 140 S. Ct. 779,
End of Document

784-85, 206 L.Ed.2d 81 (2020). The Supreme Court reasoned
that the ACCA's definition of “serious drug offense” requires
only that the state offense involve the conduct specified in
the federal statute, and not that the state offense match the
elements of a generic drug offense.

Id. at 785-787.

Here, the district court did not err in applying the career
offender enhancement based on Jones's prior convictions
under
Fla Stat. § 893.13. As Jones acknowledges, his
argument that his convictions are not serious drug offenses is
foreclosed by

Smith.

Smith is binding precedent, and, in

Shular, the United States Supreme Court recently affirmed
its holding in the ACCA context.
AFFIRMED.
All Citations
814 Fed.Appx. 553 (Mem)
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

A-2

Case 9:19-cr-80004-KAM Document 30 Entered on FLSD Docket 04/12/2019 Page 1 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 1 of 6

UNITED STATES DISTRICT COURT
Southern District of Florida
West Palm Beach Division

UNITED STATES OF AMERICA
v.
DUWAYNE JONES

JUDGMENT IN A CRIMINAL CASE
Case Number: 19-80004-CR-MARRA
USM Number: 19466-104
Counsel For Defendant: Peter Birch, AFPD
Counsel For The United States: Jennifer Nucci, AUSA
Court Reporter: Stephen Franklin

The defendant pleaded guilty to Count One of the Indictment on February 1, 2019.
The defendant is adjudicated guilty of these offenses:
TITLE & SECTION

NATURE OF OFFENSE

OFFENSE
ENDED

COUNT

21 U.S.C. §
841(a)(1),(b)(1)(C)

Distribution of a detectable amount of heroin and
cocaine

10/02/2018

One

The defendant is sentenced as provided in the following pages of this judgment. The sentence is imposed pursuant
to the Sentencing Reform Act of 1984.
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change
of name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
judgment are fully paid. If ordered to pay restitution, the defendant must notify the court and United States attorney
of material changes in economic circumstances.

Date of Imposition of Sentence: 4/12/2019

____________________________________________
Kenneth A. Marra
United States District Judge

Date: April 12, 2019

Case 9:19-cr-80004-KAM Document 30 Entered on FLSD Docket 04/12/2019 Page 2 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 2 of 6

DEFENDANT: DUWAYNE JONES
CASE NUMBER: 19-80004-CR-MARRA
IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of 144 months.
The court makes the following recommendations to the Bureau of Prisons: The defendant be designated to
an institution in South Florida and that he enter the Bureau of Prisons 500 Hour Drug Treatment Program.
The defendant is remanded to the custody of the United States Marshal.
RETURN
I have executed this judgment as follows:

Defendant delivered on ________________________________________ to ________________________________________
at ________________________________________ , with a certified copy of this judgment.

___________________________________________
UNITED STATES MARSHAL

___________________________________________
DEPUTY UNITED STATES MARSHAL

Case 9:19-cr-80004-KAM Document 30 Entered on FLSD Docket 04/12/2019 Page 3 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 3 of 6

DEFENDANT: DUWAYNE JONES
CASE NUMBER: 19-80004-CR-MARRA
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of Three (3) years.
The defendant must report to the probation office in the district to which the defendant is released within 72 hours of release
from the custody of the Bureau of Prisons.
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any unlawful use of a
controlled substance. The defendant shall submit to one drug test within 15 days of release from imprisonment and at least
two periodic drug tests thereafter, as determined by the court.
The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon.
The defendant shall cooperate in the collection of DNA as directed by the probation officer.
If this judgment imposes a fine or restitution, it is a condition of supervised release that the defendant pay in accordance with
the Schedule of Payments sheet of this judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

STANDARD CONDITIONS OF SUPERVISION
1.
2.
3.
4.
5.
6.
7.
8.
9.
10.
11.
12.
13.

The defendant shall not leave the judicial district without the permission of the court or probation officer;
The defendant shall report to the probation officer and shall submit a truthful and complete written report within the first fifteen
days of each month;
The defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;
The defendant shall support his or her dependents and meet other family responsibilities;
The defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or
other acceptable reasons;
The defendant shall notify the probation officer at least ten days prior to any change in residence or employment;
The defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any
controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;
The defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;
The defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person
convicted of a felony, unless granted permission to do so by the probation officer;
The defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation
of any contraband observed in plain view of the probation officer;
The defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement
officer;
The defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without
the permission of the court; and
As directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant’s
criminal record or personal history or characteristics and shall permit the probation officer to make such notifications and to
confirm the defendant’s compliance with such notification requirement.

Case 9:19-cr-80004-KAM Document 30 Entered on FLSD Docket 04/12/2019 Page 4 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 4 of 6

DEFENDANT: DUWAYNE JONES
CASE NUMBER: 19-80004-CR-MARRA
SPECIAL CONDITIONS OF SUPERVISION
Mental Health Treatment - The defendant shall participate in an approved inpatient/outpatient mental health
treatment program. The defendant will contribute to the costs of services rendered (co-payment) based on ability
to pay or availability of third party payment.
Permissible Search - The defendant shall submit to a search of his/her person or property conducted in a
reasonable manner and at a reasonable time by the U.S. Probation Officer.
Sex Offender Treatment - The defendant shall be evaluated for the need of sex offender treatment and if needed
shall participate in a sex offender treatment program to include psychological testing and polygraph examination.
Participation may include inpatient/outpatient treatment, if deemed necessary by the treatment provider. The
defendant will contribute to the costs of services rendered (co-payment) based on ability to pay or availability of
third party payment.
Substance Abuse Treatment - The defendant shall participate in an approved treatment program for drug and/or
alcohol abuse and abide by all supplemental conditions of treatment. Participation may include
inpatient/outpatient treatment. The defendant will contribute to the costs of services rendered (co-payment) based
on ability to pay or availability of third party payment.

Case 9:19-cr-80004-KAM Document 30 Entered on FLSD Docket 04/12/2019 Page 5 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 5 of 6

DEFENDANT: DUWAYNE JONES
CASE NUMBER: 19-80004-CR-MARRA
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
TOTALS

Assessment
$100.00

Fine
$0.00

Restitution
$0.00

* Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for
offenses committed on or after September 13, 1994, but before April 23, 1996.
**Assessment due immediately unless otherwise ordered by the Court.

Case 9:19-cr-80004-KAM Document 30 Entered on FLSD Docket 04/12/2019 Page 6 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 6 of 6

DEFENDANT: DUWAYNE JONES
CASE NUMBER: 19-80004-CR-MARRA
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A. Lump sum payment of $100.00 due immediately.
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal
monetary penalties is due during imprisonment. All criminal monetary penalties, except those payments made
through the Federal Bureau of Prisons’ Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties
imposed.
This assessment/fine/restitution is payable to the CLERK, UNITED STATES COURTS and is to be addressed to:
U.S. CLERK'S OFFICE
ATTN: FINANCIAL SECTION
400 NORTH MIAMI AVENUE, ROOM 08N09
MIAMI, FLORIDA 33128-7716
The assessment/fine/restitution is payable immediately. The U.S. Bureau of Prisons, U.S. Probation Office and the
U.S. Attorney's Office are responsible for the enforcement of this order.
Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest,
(4) fine principal, (5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of
prosecution and court costs.

